<html>
<title> - EXAMINING THE COSTS OF OVERCLASSIFICATION ON TRANSPARENCY AND SECURITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]













 EXAMINING THE COSTS OF OVERCLASSIFICATION ON TRANSPARENCY AND SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 7, 2016

                               __________

                           Serial No. 114-174

                               __________

Printed for the use of the Committee on Oversight and Government Reform








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-177 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
   





















              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
THOMAS MASSIE, Kentucky              BRENDA L. LAWRENCE, Michigan
MARK MEADOWS, North Carolina         TED LIEU, California
RON DeSANTIS, Florida                BONNIE WATSON COLEMAN, New Jersey
MICK MULVANEY, South Carolina        STACEY E. PLASKETT, Virgin Islands
KEN BUCK, Colorado                   MARK DeSAULNIER, California
MARK WALKER, North Carolina          BRENDAN F. BOYLE, Pennsylvania
ROD BLUM, Iowa                       PETER WELCH, Vermont
JODY B. HICE, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
STEVE RUSSELL, Oklahoma
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                    Andrew Dockham, General Counsel
                      Kathy Rother, Senior Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 7, 2016.................................     1

                               WITNESSES

Mr. J. William Leonard, Former Director, Information Security 
  Oversight Office
    Oral Statement...............................................     5
    Written Statement............................................     8
Mr. Steven Aftergood, Director, Project on Government Secrecy, 
  Federation of American Scientists
    Oral Statement...............................................    47
    Written Statement............................................    49
Mr. Tom Blanton, Director, National Security Archive, The George 
  Washington University
    Oral Statement...............................................    57
    Written Statement............................................    59
Mr. Scott Amey, General Counsel, Project on Government Oversight
    Oral Statement...............................................    69
    Written Statement............................................    71

                                APPENDIX

2015 Report to the President ISOO-National Archives submitted by 
  Mr. Chaffetz can be found here: https://www.archives.gov/files/
  isoo/reports/2015-annual-report.pdf

 
 EXAMINING THE COSTS OF OVERCLASSIFICATION ON TRANSPARENCY AND SECURITY

                              ----------                              


                      Wednesday, December 7, 2016

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 9:00 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Farenthold, Massie, Meadows, DeSantis, 
Mulvaney, Buck, Walker, Hice, Russell, Carter, Grothman, Hurd, 
Palmer, Cummings, Maloney, Clay, Lynch, Connolly, Kelly, 
Lawrence, Watson Coleman, Plaskett, DeSaulnier, Welch, and 
Lujan Grisham.
    Chairman Chaffetz. Good morning. The Committee on Oversight 
and Government Reform will come to order.
    And, without objection, the chair is authorized to declare 
a recess at any time.
    We have an important hearing this morning: ``Examining the 
Costs of Overclassification on Transparency and Security.'' 
Sunlight is said to be the best disinfectant, and without 
knowing what our government is doing, we can't ensure it is 
operating efficiently and effectively. It is also important to 
remember that the American people pay for the Federal 
Government. The Federal Government works for the American 
people. It is not the other way around, and so it is, you would 
think, logical to make sure that we are as open and transparent 
and accessible as possible, but this is always a running 
battle. We always have to find the proper balance between 
safety and security and openness and transparency, but we can't 
give up all of our liberties in the name of security. And so we 
have this hearing today with four experts, people who have 
poured their time, effort, talent, their careers really, into 
this topic. There is a wealth of information that they are 
going to share with us, and that is what we are excited to hear 
about today.
    Without knowing what our government is doing, we can't 
ensure it is operating efficiently and effectively, as I said. 
Transparency is the basis ultimately for accountability. At the 
same time, transparency into certain government activities can 
create an opportunity for those who wish to do us harm, and so 
Congress gives some agencies the authority to withhold certain 
information from public disclosure. This authority to classify 
information and create secrets is needed to protect our 
national security. I don't think anybody doubts that there 
should be a degree of this. The question is what degree of 
this. But when you give the authority to classify certain 
information, Congress has a role to play in making sure that 
authority is being properly excercised.
    Overclassification of information has become a concern. 
Estimates range from 50 to 90 percent of classified material is 
not properly labeled. In the 1990s, Congress established the 
Commission on Protecting and Reducing Government Secrecy to 
study those issues and develop recommendations. In 1997, the 
Commission issued a final report, including 16 recommendations. 
Three of those recommendations were implemented. Seven were 
partially implemented, and six remain open today. The Chairman 
of the Commission, the late Senator Patrick Moynihan, wrote, 
and I quote: ``If the present report is to serve any large 
purpose, it is to introduce the public to the thought that 
secrecy is a mode of regulation. In truth, it is the ultimate 
mode for the citizen does not even know that he or she is being 
regulated,'' end quote.
    Patrick Moynihan, hats off to him and his leadership in 
understanding and really helping to champion this effort to 
move forward and really examine the degree of which secrecy is 
needed in our Nation.
    Here we don't even know what can hurt us. As the tendency 
to overclassify information goes, so does the lack of 
accountability to both Congress and the American taxpayer. The 
Commission also warned about the dangers of restricting 
information from those who actually do need it. Looking back, 
that point seems almost prophetic in light of the events that 
would unfold on September 11, 2001.
    After conducting an exhaustive study of the attacks, the 9/
11 Commission issued its own report that found we need to move 
forward from a system of need-to-know to a culture of need-to-
share. What we have learned is that overclassification can also 
be damaging to national security, or at a minimum, it can lead 
to second guessing what might have been if we were only able to 
get the information in the right hands at the right time.
    According to a report by the Information Security Oversight 
Office at the National Archives, in the last 10 years, the 
Federal Government has spent more than $100 billion on security 
classification activities. In fact, I would ask unanimous 
consent to enter that report into the record.
    Without objection, so ordered.
    Chairman Chaffetz. Last year alone, classification is 
estimated to have cost $16 billion. It is unclear what exactly 
the taxpayers got in return for this expense. There was 
presumably some level of greater security as a result of 
restricting access to certain information. Again, no doubt that 
there needs to be classification that needs to be implicated, 
but at what level? This leads us to a number of basic 
questions. Does the billions of dollars spent to classify make 
us safer? How much money did we spend on security clearances 
for folks who probably didn't need them in the first place?
    Earlier this week, the Washington Post reported the 
Department of Defense found $125 billion in savings over 5 
years by simply streamlining bureaucracy--$125 billion. To give 
you an idea, the entire State of Utah, everything we do in 
Utah--it is a smaller State, granted--but everything we do, 
from education to the National Guard to roads and paying 
teachers, is about $14 billion. And here at the Department of 
Defense, 5 years' savings, $125 billion, by simply streamlining 
bureaucracy.
    The Department of Defense was sufficiently embarrassed by 
this, as they should be, and decided to bury the study, but 
trust me: we are going to look into this. According to the 
article, quote, ``The Pentagon imposed secrecy restrictions on 
the data, which ensured that no one could replicate the 
findings,'' end quote. Not what we should be doing as a Nation. 
It is a prime example of why we are holding this hearing today. 
And when agencies have a tool to keep information from the 
public, Congress must ensure those tools aren't used for 
nefarious reasons.
    I look forward to discussing those issues with the 
witnesses today. I thank the panel of experts for coming before 
the committee to help us better understand some of the 
complexities of the government secrecy. I think you will find 
that Congress, in particular this committee, has a keen 
interest on this. The committee has been has been a leader and 
a champion of the Freedom of Information Act, one of the tools 
that is important for the American public to understand what 
their government--their government is supposed to be working 
for them--is actually doing. So I look forward to this 
discussion.
    Somebody I know who holds an equal passion for this is my 
colleague, Elijah Cummings, the ranking member, from Maryland, 
and I would like to recognize him for his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Thank you very much for holding this hearing. Government 
transparency is a bipartisan issue. Over multiple sessions of 
Congress, our committee has made significant progress in making 
the Federal Government more open and accountable. We do this 
best when we work together.
    During this Congress, we worked together to strengthen the 
Freedom of Information Act, and those amendments were signed 
into law by President Obama in June. Just this past Monday, we 
sent another bill to the White House to strengthen protections 
for employees working for contractors and grantees who blow the 
whistle on waste, fraud, and abuse.
    We now have the opportunity to work together to address the 
flaws in our classification system. Over the past several 
years, our committee has conducted multiple investigations, 
including our review of Secretary Clinton's emails, that 
exposed serious flaws in our classification system. We have 
seen agencies disagree with each other on whether an email was 
classified. We have seen information that began unclassified 
later being retroactively classified. We have seen documents 
that were not properly marked as classified. And we have seen 
documents that were classified after they had already been 
publicly released. And, first and foremost, I believe that we 
in Congress should exercise our authority to improve the 
classification system and make government information more 
transparent. We can conduct oversight, such as these hearings, 
and we can investigate specific allegations of security 
breaches and unwarranted government secrecy. Congress can also 
legislate them. We can pass reforms that actually address the 
problems we will hear about today.
    Twenty years ago, the Moynihan Commission provided a 
roadmap to improving the classification system. But too little 
has been done since that report was issued. For example, the 
Commission recommended that Congress enact a statute 
establishing the principles of classification, but Congress 
still has not taken that step. The fundamental purpose 
underlying all of our efforts today is to provide the American 
people with more information, especially when it impacts our 
national security. Our operating premise is that a better 
informed electorate leads to a better-functioning government on 
behalf of all of the American people.
    Mr. Chairman, I thank you for calling today's critical 
hearing, but there is another national security area that I 
believe the American people should have much more information 
about from their government.
    On November 17, 2016, I wrote a letter to the chairman 
requesting that our committee conduct a bipartisan 
investigation into Russia's role into interfering with and 
influencing the 2016 Presidential election. I specifically 
requested that we receive a classified briefing from the 
intelligence community. Today, nearly 3 weeks have now gone by. 
I have received no response, and the committee has taken no 
action.
    Now, Mr. Chairman, I know you have said that you do not 
want to do any oversight relating to President-elect Donald 
Trump until he is sworn into office, and I can understand that. 
But these attacks on our country have already happened. It 
already happened. This is not something of a future threat. 
This has already been done. And unless we act, it may very well 
happen again. For these reasons, yesterday, I joined Democratic 
whip, Steny Hoyer, and ranking members of the Committees on 
Armed Services, Homeland Security, Intelligence, Judiciary, and 
Foreign Affairs, and we did ourselves what this committee did 
not. We sent a letter to the President requesting that all 
Members, that all of us, all Members of Congress, Democrats and 
Republicans, be provided the opportunity to receive a 
classified briefing by the intelligence community with the most 
up-to-date information on this issue.
    This is not a partisan issue, and it should not be. 
Republican Senator Lindsey Graham has called for this type of 
investigation in the Senate, essentially saying that 
Republicans should not sit on the sidelines and let allegations 
about foreign governments interfering in our election go 
unanswered just because it may have been beneficial to them in 
this instance. Republican Senator Marco Rubio put it even more 
bluntly saying, quote: ``Today, it is the Democrats. Tomorrow, 
it could be us,'' end of quote.
    The bottom line is that this is not a Democratic issue, and 
it is not a Republican issue. This is an American issue. 
Elections are a core American value and are central to our 
democracy, and any foreign interference with our elections 
should be of the greatest concern to every single Member of 
this Congress. The American people deserve as much information 
as possible about these threats and the actions their 
government is taking to address them. As I say to my 
constituents over and over again in the last election and 
during these times, this is bigger than Hillary Clinton. This 
is bigger than Donald Trump. This is about a struggle for the 
soul of our democracy, and so it is our job to ensure that we 
get this kind of information since it is our duty to make sure 
that our democracy stands strong and that our children's 
children can have a democracy just as strong as the one that we 
have experienced.
    And, with that, I yield back.
    Chairman Chaffetz. I thank the gentleman.
    We will hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    I will now recognize our panel of witnesses. I am pleased 
to welcome Mr. J. William Leonard, former Director of the 
Information Security Oversight Office; Mr. Steven Aftergood, 
director of the Project on Government Secrecy at the Federation 
of American Scientists; Mr. Tom Blanton, director of the 
National Security Archive at the George Washington University; 
and Mr. Scott--is it Amey?
    Mr. Amey. Yes, sir.
    Chairman Chaffetz. I just want to make sure I pronounce 
that properly. Mr. Scott Amey, general counsel for the Project 
on Government Oversight.
    We welcome you and thank you for being here.
    Pursuant to committee rules, all witnesses are to be sworn 
in before they testify. If you will please rise and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. You may be seated.
    Let the record reflect that all witnesses answered in the 
affirmative. In order to allow time for discussion, we would 
appreciate your limiting your verbal comments to no greater 
than 5 minutes so members can have ample time to ask questions. 
Your entire written statement and extraneous materials will be 
entered into the record.
    Mr. Leonard, you are now recognized for 5 minutes. And the 
microphones in this committee, you have got to straighten them 
up and put them right up uncomfortably close. Thank you.

                       WITNESS STATEMENTS

                STATEMENT OF J. WILLIAM LEONARD

    Mr. Leonard. Thank you, Mr. Chairman, Mr. Cummings, members 
of the committee. I appreciate the opportunity to attend this 
meeting this morning. The ability and authority to classify 
national security information is a critical tool of the Federal 
Government and its leaders to protect our Nation and its 
citizens. However, when negligently or recklessly applied, 
overclassification of information can undermine the very 
integrity of the classification system and also create needless 
impediments to transparency that can undermine our form of 
government and its constitutional system of checks and 
balances.
    I have come to the conclusion that, on its own, the 
executive branch is both incapable and unwilling to achieve 
true reform in this area. Incapable in that, absent external 
pressure from either the legislative or judiciary branches of 
our government, true reform within the executive branch when 
the matter involves the equities of multiple agencies can only 
be achieved with the direct leadership emanating from the White 
House.
    Over the past 40 years, we have seen only one White House-
led attempt at classification reform, and that was in the 
1990s. Bureaucracy's response to those attempts at reform were 
typical--delay and foot drag--because agency officials know 
that, sooner or later, every administration eventually goes 
away, providing opportunities for rollback.
    With respect to the executive branch's unwillingness to 
implement real classification reform, I believe it is 
unreasonable to expect it to do so primarily since the 
unconstrained ability to classify information is such an 
attractive tool for any administration to facilitate 
implementation of its national security agenda. In this regard, 
especially in the years since 9/11, we have seen successive 
administrations lay claim to new and novel authorities and to 
often wrap these claims in classification. This can amount to 
unchecked executive power. While the President must have the 
ability to interpret and define the constitutional authority of 
the office and at times to act unilaterally, the limits of the 
President's authority to act unilaterally are defined by the 
willingness and the ability of Congress and the courts to 
constrain them.
    Of course, before the Congress or the courts can constrain 
Presidential claims to inherent unilateral powers, they must 
first be aware of those claims. Yet a long recognized power of 
the President is to classify and thus restrict the 
dissemination of information in the interest of national 
security, to include access by Congress or the courts. The 
combination of these two powers, that is when the President 
lays claim to inherent powers to act unilaterally but does so 
in secret, can equate to the very open-ended noncircumscribed 
executive authority that the Constitution's Framers sought to 
avoid in constructing a system of checks and balances.
    Thus, absent ongoing congressional oversight or judicial 
review of executive assertions of classification, no one should 
ever be surprised that the authority to class information is 
routinely abused in matters both big and small.
    I have attached to my formal statement specific examples of 
classification abuse relating to three criminal cases in which 
the prosecution ultimately did not prevail in large part due to 
government overreach in its claims that certain information was 
classified. In each of these cases, the government abused the 
classification system and used it for other than its intended 
purpose.
    I believe that there are steps that Congress can take in 
order to address this matter. The first deals with enforcing 
accountability. Over the past several decades, a significant 
number of individuals have rightly been held accountable for 
improperly handling classified information. To my knowledge, 
during the same period, no one has ever been held accountable 
and subjected to sanctions for abusing the system and for 
improperly classifying information, despite the fact that the 
President's executive order governing this authority treats 
unauthorized disclosures of classified information and 
inappropriate classification of information as equal violations 
of the order, subjecting perpetrators to comparable sanctions. 
Absent real accountability, it is no surprise that 
overclassification occurs with impunity.
    A second area worthy of possible legislative attention is 
that of providing a mechanism for routine, independent expert 
review of agency classification decisions, especially as a tool 
to be made available to the executive's two coequal branches of 
government when exercising congressional oversight or judicial 
action and to which they could come to their own independent 
judgment as to the appropriateness of executive assertions of 
classification. Traditionally, both Congress and the courts are 
understandably deferential to such assertions. Nonetheless, 
when applying the controls of classification, government 
officials are obligated to follow the standards set forth by 
the President and not exceed the governing orders, 
prohibitions, and limitations.
    Thus, it is not only possible but entirely appropriate to 
conduct a standards-based review of classification decisions. I 
have attached to my formal statement one potential methodology 
for such reviews.
    I applaud this committee for focusing on this critical 
topic to our Nation's well-being, and I thank you for inviting 
me here today, Mr. Chairman. I will be happy to answer any 
questions you or other committee members might have.
    [Prepared statement of Mr. Leonard follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
      
    Chairman Chaffetz. Thank you.
    Now there is a model for ending right at the 5-minute mark.
    Mr. Aftergood, I challenge you to come within 1 second of 
that mark as well, but you are now recognized for 5 minutes.

                 STATEMENT OF STEVEN AFTERGOOD

    Mr. Aftergood. Thank you, Mr. Chairman and Ranking Member 
Cummings.
    As you know and as you really expressed very well, 
overclassification presents many kinds of problems. It makes 
your oversight job more difficult. It incurs substantial 
financial and operational costs, and it often leaves the public 
in the dark about national security matters of urgent 
importance that they should be aware of.
    Why do we even have overclassification? I think there are 
many reasons. For one thing, it is easier for officials to 
restrict access to information without carefully weighing the 
pros and cons of what should be disclosed. Overclassification 
many times is simply the path of least resistance. Unchecked 
classification can also serve the political interests of the 
classifiers. It is a way to manage public perceptions, to 
advance an agenda, to limit oversight, or simply to gain a form 
of political advantage.
    So what is the solution to overclassification? I don't 
think there is a single solution. I discuss several partial 
solutions in my written statement. Many of those solutions 
depend on Congress to assert itself and to affirm its own 
institutional interests. Congress is not a spectator, and it 
should not be a victim when it comes to overclassification. It 
is a coequal branch of government.
    In the executive branch, there are lots of fine and 
conscientious people who are involved in classification policy, 
fortunately, but we should not have to rely on their integrity. 
We rely instead on Congress to exercise checks and balances in 
performing its routine oversight duties.
    Finally, I would like to say that we are in a peculiar 
moment in our history that makes this issue particularly 
urgent. Everything I have just said about overclassification 
could have been said 10 years ago or 20 years ago. This is a 
stubborn and persistent problem, but there is something 
different today. We are living in a period of unusual political 
instability that I believe requires even greater transparency. 
Almost every day, we see increased expressions of hostility 
against religious and ethnic minorities. So-called fake news 
has lately resulted in actual acts of violence here in 
Washington, D.C., in the past week. And it seems that our 
political institutions are under a subtle form of attack by 
foreign actors, as the ranking member discussed. This is not a 
normal situation, and it is not the way that things have always 
been.
    What complicates things further is that the incoming 
administration, at least during the election cycle, has 
indicated policy preferences that depart significantly from 
existing law and policy in areas such as foreign policy, 
questions of whether or not to engage in torture, questions 
involving freedom of religion. In some cases, these raise basic 
constitutional issues. So the bottom line is that we are 
entering a turbulent time. Reducing overclassification and 
increasing transparency will not solve our problems. But if we 
fail to reduce overclassification, we are going to make those 
problems worse and harder to solve. Thank you again for holding 
this hearing and for the essential work of oversight that you 
do. I would be glad to answer any questions you may have.
    [Prepared statement of Mr. Aftergood follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
    Chairman Chaffetz. Thank you.
    Mr. Blanton, you are now recognized for 5 minutes.

                    STATEMENT OF TOM BLANTON

    Mr. Blanton. I am certainly not going to match those 
timings. He did 5 minutes. He did 4 minutes. It was 
outstanding.
    Thank you, Mr. Chairman, and thank you, Ranking Member 
Cummings, and thank you other distinguished members of this 
committee for having me here today.
    I am here to make three points: One of them is a thank you 
for the Freedom of Information Act amendments that you all 
mentioned, because it is a model for what you can do here on 
classification.
    Second is to reinforce the message of that Moynihan 
Commission report. It was actually Moynihan, Combest, Jesse 
Helms, John Podesta commission. So you can tell when it is a 
unanimous bipartisan, it is something to pay attention to. And 
the number one recommendation was to pass a law to govern and 
fix this system.
    The third thing I am here to tell you is that, when a 
security official--officials--tell you something is classified, 
don't believe them. Most of the time they are wrong. Fifty to 
90 percent of the time, as the chairman commented, they are 
wrong. So don't believe them. I am going to back that up with a 
few examples.
    But, first, the Freedom of Information Act amendments and 
why that is a model. You have already had an impact. You all, 
this committee was the leaders in this House of Representatives 
to get those amendments passed, and already the Central 
Intelligence Agency has released its Bay of Pigs draft history 
that they locked up for 30 years. On what grounds? Well, when 
you read it, you find out the grounds. The historian who wrote 
it and drafted it said: ``After more than 20 years, it appears 
that fear of exposing the Agency's dirty linen, rather than any 
significant security information, is what prompts continued 
denial of request for release of these records.'' That is the 
norm in the bureaucracy. Your amendments broke this loose. The 
CIA historian wrote on the back: Well, shucks, recent 2016 
changes in the Freedom of Information Act require us to release 
some drafts that are responsive to FOIA requests.
    You did it by statute. That is the Congress' role. You can 
do it to the classification system. And I recommend the 
detailed list of recommendations in the back of this 
extraordinary report, the Moynihan-Combest report, for how you 
can do that. You can build in cost-benefit into the originating 
classification decision. You can build in assessments of, what 
is the real risk? What is the real vulnerability? What is the 
stream of cost to the public and to efficient government 
operations from classifying? You can do that on the front end. 
You can build in a declassification board with power to release 
so you get a rational declassification on the back end so the 
system doesn't get completely gummed up with unnecessary 
secrets. You can move those 50 to 90 percent of what shouldn't 
be secret out to the public. You can do that, but you have got 
to do it by statute. As Bill Leonard says, the government is 
not going to fix itself. You have got to do it.
    My third point is just don't believe them on 
classification. Last month, we got a nice, you know, letter 
from the Joint Chiefs of Staff in answer to a Freedom of 
Information request. That is the document they gave us. It is 
all blacked out because releasing it would damage our national 
security, seriously damage it. This is at the secret level, 
right? It was fascinating because our staff person took a look 
and said: Oh, that is the Joint Chief's advice on a 
Presidential policy directive back in July of 1986. That looks 
kind of familiar.
    And he flipped back in the files. Turns out we got it in 
2010 in full. That made us go look at the cover letter. You 
know what the cover letter says? It says: We have coordinated 
your Freedom of Information review in consultation with the 
Joint Staff and the National Security Council. This is from the 
Office of the Secretary of Defense. It says OSD and NSC have no 
objection to declassification in full. However, Mr. Mark 
Patrick of the Joint Staff thinks it ought to be classified, 
and thus you got the black blotches. Classic case. One office 
doesn't agree with another office. One says it has been 
released for 6 years. Another says it is going to damage our 
national security.
    Attached to my testimony, I got a half dozen other examples 
where it is not even one office and another office. It's the 
same reviewer one week apart had diametrically opposed views of 
what would damage our national security from release. So, 
bottom line, Mr. Chairman, Ranking Member: Don't believe them. 
Thank you very much for your time. I welcome your questions.
    [Prepared statement of Mr. Blanton follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
     
    Chairman Chaffetz. Well, thank you. We love your passion 
for it. It is good.
    Mr. Amey, you are now recognized for 5 minute.

                    STATEMENT OF SCOTT AMEY

    Mr. Amey. That is a tough act to follow. Good morning, 
Chairman Chaffetz, Ranking Member Cummings, and members of the 
committee. POGO has always recognized the tension between 
openness and protecting legitimate government secrets, but the 
executive branch frequently overclassifies more information 
than is necessary and has developed new ways to conceal 
government information. Such obstructions create barriers to 
public deliberations on policy and government spending, impede 
sharing, and harm efforts to identify and remedy waste, fraud, 
and abuse. The 9/11 Commission said it simply: ``Secrecy, while 
necessary, can also harm oversight.'' Sometimes the result of 
classification is not for the legitimate need of secrecy but 
the concealment of embarrassing information, which creates 
public distrust.
    There are five main points that I want to briefly discuss 
today: overclassification, retroactive classification, 
controlled unclassified information, treatment in handling 
cases, and, finally, executive branch use of secret laws.
    In overclassification, overclassification might be a form 
of either excessive redactions or improper markings. Reports by 
the National Security Archive and ISOO show that the 
classification process is mostly heading in the right 
direction, and we have seen some improvement over the last few 
years, especially considering the amount of electronic 
documents that have to be reviewed. But one number is a 
concern. In 2015, classification decisions were overturned in 
whole or in part in over 50 percent of the challenges. That was 
411 cases overturned out of 814 decisions that were made. 
Additionally, we have heard stories about the lack of clarity 
and authority in standards leading different agencies to come 
to different conclusions, as Mr. Blanton just discussed.
    POGO is also concerned about the lack of clarity about what 
constitutes intelligence sources and methods, which also can 
lead to overclassification.
    And, finally, classifications aren't free. As the chairman 
mentioned, total security classification costs exceeded $16 
billion back in 2015.
    The Moynihan Commission had an excellent recommendation to 
improve the system: classification decisions, including the 
establishment of special access programs, no longer be based on 
damage to national security. Additional factors, such as cost 
of protection, vulnerability, threat, risk, value of the 
information, and public benefit from release, could also be 
considered when making classification decisions. POGO is in 
agreement that such factors should be considered to reduce 
executive branch secrecy.
    On the issue of retroactive classification, for years, POGO 
has expressed concerns about questionable activities to 
retroactively classify government information. POGO has 
firsthand experience because we were involved in instances 
involving Area 51 and unclassified briefings to Members of 
Congress in a whistleblower retaliation case. POGO believes 
that any reviews of the classification process should include a 
comprehensive look at issues affecting retroactive 
classification, including failures in the system to classify 
the information appropriately, how frequently it occurs, what 
considerations were given to the information, if it is publicly 
available, and what constitutes constitutional issues related 
to prior restraints.
    On the issue of controlled unclassified information, there 
has been a proliferation of CUI, and by 2010, there were over 
100 different CUI markings within government agencies. We have 
even witnessed examples of misuse, and POGO hopes that the 
committee will consider providing oversight of the 
implementation of the recently released CUI regulations. We 
have also even recently heard an example--and it was something 
that we had complained about during the process--that employees 
at DHS, when they were given FOIA training, were also 
instructed that, if they have a FOIA that comes in and the 
information is marked ``CUI,'' it should not be released. And 
so that is opposite to the executive order that the President 
issued as well as the language that is in the final regulation 
from there and ISOO.
    Unequal treatment in handling cases. In the past few years, 
we have witnessed numerous instances of mishandling of 
classified or protected information. I go into more detail in 
my written testimony, but POGO thinks that, if an intent is 
considered in high-profile cases involving senior officials, it 
should also be considered, as well as other factors, in 
whistleblower cases.
    Secret law. POGO has voiced many concerns about the 
executive branch use of secret law. How we come to conclusions 
and striking the right balance between our security and our 
rights is imperative, and the legal interpretations cannot be 
cloaked in secrecy. Secret law poses a serious harm to our 
democracy.
    POGO's written recommendations are in our written 
testimony, but I think there is one issue and point that the 9/
11 Commission made that is important about nurturing--that the 
current system nurtures overclassification. There are no 
punishments for not sharing information. Agencies uphold a 
need-to-know culture of information, protecting rather than 
promoting a need-to-share culture of integration.
    Thank you for inviting me to testify. I look forward to 
working with the committee and further exploring how to 
legitimately protect classified information and reducing 
government secrecy and cost. Thank you.
    [Prepared statement of Mr. Amey follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
      
    Chairman Chaffetz. Thank you. I appreciate all of the 
opening statements.
    We will now recognize the gentleman from Michigan, Mr. 
Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thank you for 
holding this hearing. It is something that probably many of us 
have surmised was going on. It certainly goes to a frustrating 
level, and I appreciate the fact that, in this report that you 
pointed out, Mr. Chairman, ``Pentagon buries evidence of $125 
billion in bureaucratic waste,'' done by two reporters, one of 
which certainly has established credentials for doing 
investigative reporting, and we ought to take this seriously. 
But I think when I read this, the frustrating thing was the 
number of assertions that lawmakers don't want to do anything 
about this because of the impact in their districts. And 
certainly there is evidence to show that, but I think this 
committee has lawmakers better than that. I hope this is a real 
start.
    Mr. Amey, according to that article in the Washington Post, 
the Department of Defense first commissioned and then hid--
hid--the unflattering results, and did it aggressively, hid 
that, with retribution, offered threats, you name it, of the 
waste and efficiencies. Are you familiar with the report?
    Mr. Amey. Yes.
    Mr. Walberg. I would expect so. In your view, what reasons 
could the DOD have had to keep the results of the report from 
the public?
    Mr. Amey. Oh, boy, you are putting me on the spot. I'm 
trying to predict what the Department of Defense was thinking. 
I don't know. It is very difficult because the report is 
actually on the Internet. We found it yesterday when the story 
came out. It has been on the Internet since that time. The 
Defense Business commission actually had a slide presentation, 
a summary of the report, on its Web site, and so we are trying 
to actually figure out, and we actually reached out to the 
reporters to try to figure out where the secrecy was coming in 
and what was taking place. But I would imagine it is public 
embarrassment. I mean, at the end of the day, we are talking 
about the Department of Defense trying to protect $125 billion 
and the fact that they can't pass an audit and there is other 
scrutiny on top of them, that I think this was just an issue of 
``we didn't want this to get out and so let's try to keep it 
under wraps.''
    Mr. Walberg. And I am sure $125 billion doesn't sound 
unreasonable to you?
    Mr. Amey. Oh, no, sir. I mean, we have been saying it for 
years that, between when you look at goods and services--most 
of my work is on contract oversight, and when you look at 
Department of Defense goods and services, we factored that, 
yeah, we are probably in the tens to hundreds of billions of 
dollars' worth of waste.
    Mr. Walberg. As I read that, it just goes back to simple 
truth that a bureaucracy will protect itself. And a bureaucracy 
does not want to be downsized in any way, shape, or form. But 
in a time of sequestration, at a time when our warfighters and 
their families, et cetera, are suffering reductions, for this 
type of dollar amount to be held over and attempted at least to 
be hid from us is unconscionable. To think that this could, as 
I have read, cover the cost, the operational costs, of 50 Army 
brigades--that is pretty significant--or 3,000 F-35 strike 
forces or 10 strike forces of carriers, that is just 
unconscionable that this would have been disregarded and 
hidden.
    What can Congress do to ensure that agencies engage in this 
type of self-analysis but then also use results to improve 
existing operations?
    Mr. Amey. It is a wonderful question because that is 
exactly what the point is, is, at the end of the-day, we have 
asked for inventories of contracts, of inventories of what we 
are buying, how many services are being provided. 
Unfortunately, there was actually a chart out a few years ago 
that said that the government doesn't often know how much the 
government is spending and what it is being used for, and so 
that is where we need to get to the audits, but specific 
audits--just not check the box, did people do X, Y, and Z?-- we 
need specific audits of specific spending. GAO does a fairly 
good job. DCAA is involved in the process. But that is where I 
think we need to go a lot deeper into these specific programs 
and then get to the heart of why we see so many overruns on 
some of these programs. I mean, there is a lot of waste out 
there, and we just have to identify and then come to the 
solution on how to remedy it from the beginning. I mean, let's 
stop trying to put the milk back in the bottle after the fact. 
Let's do it at the start of the process before billions is 
wasted.
    Mr. Walberg. Well, I trust that, because of this hearing 
and others, I would assume that we can do that, plus starting 
new, afresh on January 20 as well, that this lesson will not be 
lost because, frankly, this is the number one responsibility of 
our Federal Government, to make sure that we have the resources 
available to do what is necessary to protect and defend our 
positions and not just protect a bureaucracy.
    And I yield back.
    Mr. Hice. [presiding.] I thank the gentleman.
    The chair now recognizes the ranking member, Mr. Cummings, 
for 5 minutes.
    Mr. Cummings. Thank you, Mr. Chair.
    Mr. Aftergood, I and many other Americans have serious 
concerns with reports of hacking and other actions by the 
Russian Government to interfere with the 2016 Presidential 
election. The intelligence community has confirmed that the 
Russian Government or its associated entities hacked the email 
accounts of individuals and political organizations before the 
Presidential election. The Director of the National Security 
Agency, Admiral Michael Rogers, said, and I quote: ``There 
shouldn't be any doubt in anybody's minds. This was not 
something that was done casually. This was not something that 
was done by chance. This was not a target that was selected 
purely arbitrarily. This was a conscious effort by a nation-
state to attempt to achieve a specific effect,'' end of quote.
    Do you believe this is an important issue for our country? 
And I notice that, in your testimony, you talked about 
classification, and you talked about the state that we find 
ourselves in overall today, and I am just curious.
    Mr. Aftergood. Yeah. It is a crucial issue. The integrity 
of the electoral process is absolutely fundamental. If we don't 
have credible, authoritative elections, the foundation of our 
political system is washed away. So, yes, it is an extremely 
serious question. I think the blanket of classification that 
has been spread over it needs to be reevaluated. Even before 
that happens, Congress needs to understand exactly what did 
happen. There are actually several questions here. What kind of 
attack occurred? What are our vulnerabilities? And what steps 
can be taken to prevent future attacks of this kind? And I 
think all of those questions are wide open.
    I would also say, though, that it is important that this 
not be construed as a sort of left-handed attack or attempt to 
undermine the incoming administration because that would only 
aggravate whatever damage has already been done, at least in my 
opinion. So I would hope that this be undertaken, as you said, 
on a bipartisan basis to say: Look, we have got a problem. We 
need to deal with it.
    Mr. Cummings. I agree with you. I think it is definitely a 
bipartisan issue. The FBI has refused to disclose any 
information about its investigation of these hacks. This is the 
opposite approach from the one the FBI took in the Clinton 
email investigation. I wrote to our chairman on November 17, 
2016, to request that our committee conduct a bipartisan 
investigation into Russia's role in interfering with and 
influencing the Presidential election, again, not to take 
anything away from President-elect Trump, but just the idea of 
it, just should bother every single American. Even Republican 
Lindsey Graham, Senator Graham, called for an investigation 
into it. Outside experts have also called for Congress to act. 
A group of 158 scholars from colleges and universities around 
the country sent Congress a letter calling for a congressional 
investigation. A group of experts on cybersecurity defense and 
fair elections wrote, and I quote: ``This evidence made 
available in an investigation might show that foreign powers 
have played an important role. It might show that such a role 
was negligible. At this juncture, we can only say that existing 
reports are plausible enough and publicly expressed enough to 
warrant Congress' full attention and swift action,'' end of 
quote.
    Mr. Blanton, do you believe there is a role for Congress in 
investigating these allegations?
    Mr. Blanton. Yes, sir. To me, one of the great headlines of 
the whole election season appeared in the Washington Post on 
November 1 when the FBI was trying to explain why it didn't 
sign on to that statement from the Director of National 
Intelligence and the Homeland Security. And the headline read: 
``Comey was concerned publicly blaming Russia for hacks of 
Democrats could appear too political in runup to elections.'' 
That is the Washington Post headline. It is an interesting 
reticence as you point out. Congress should get your classified 
briefing, Congress should understand the hacking. There is a 
huge problem. We are constructing at the National Security 
Archive Web site at George Washington University a whole cyber 
vault, trying to get declassified much of the cybersecurity 
policy documents because, as former National Security Agency 
Director Michael Hayden said, one of the problems of 
cybersecurity is it was born classified. It grew up in this 
hothouse where it was all shielded by compartments, but what we 
really need in our society is a robust debate that involves 
academics, civil libertarians, the tech companies, and this 
committee and this Congress. We have got to open it up. That 
cyber vault is beginning to get populated, but it needs more. 
It needs this Congress to get into this. It needs to press the 
intelligence community and Homeland Security to release the 
basis of their attributions. How do they figure that? That is 
the hardest part, as you well know, Mr. Cummings.
    Mr. Cummings. One last thing, Mr. Chairman. I have said it, 
and I guess, at 65, I look back and I am not so much worried 
about my life. I am worried about future generations. The idea, 
I mean, I just see, I am very concerned about our democracy. 
Mr. Aftergood, I appreciate your comments because it seems as 
if you can just chop away and chip away, and the next thing you 
know, you won't have a democracy. Do you all have similar 
concerns, any of you?
    Mr. Leonard?
    Mr. Leonard. Yes, Mr. Cummings. You know, I think, 
obviously, my insights are only based upon what I have seen in 
open-source material and whatever, but I do know from being, 
based on my past experiences, this is something straight out of 
the Russian playbook. We have seen it repeatedly happen in 
Europe, especially in Eastern Europe and things along those 
lines. In fact, it is straight out of the KGB playbook during 
the cold war. It was known as special measures back then and 
the use of disinformation and things along those lines. So, 
clearly, it does go at the very fabric. And, again, this is an 
example of what I made reference to in my opening comment in 
terms of the impact that denying information to the Congress 
can have in terms of the Congress' own ability then to carry 
out its Article I constitutional authorities, which essentially 
is oversight.
    Mr. Blanton. If I could just make one more comment on that 
issue, I think we have got to look at this question of hacking 
and attribution and roles with an eye to, what is the long-term 
fix? If you look at what the Obama administration achieved with 
China, the price of a state visit for the head of state of 
China was that China had to stop its hacking. And that whole 
arm of the People's Liberation Army kind of went on hold. And 
the question--one of the first documents we published in the 
cyber vault was the directive that authorized our National 
Security Agency to do offensive cyber operations, and that was 
in 1997. That was in 1997. I think one of the things that 
Congress has got to look at when it is trying to figure out who 
is hacking us and why and what is the damage is, what is the 
fix? I think we are going to have to end up with new 
international norms governing cyber war because our country is 
the most vulnerable in the cybersphere. It is in our national 
security interest to impose rules on other folks and to cut the 
deals, like President Obama did with President Xi, to restrain 
us. To restrain them, it will also restrain us, but that is in 
our interest.
    Mr. Cummings. Thank you.
    Mr. Hice. I thank the ranking member, and I would ask our 
panelists to help us keep within our 5 minutes. We have got a 
number of people who want to ask questions, so if we can work 
both ways.
    The chair now recognizes Mr. Farenthold for 5 minutes.
    Mr. Farenthold. Thank you, Mr. Chairman.
    Mr. Amey, you mentioned that there is no penalty for 
overclassification. What would you suggest that we do? 
Obviously, you would want some penalty for self-serving 
classification. What other areas, what would you suggest as a 
potential punishment, or do you just make it illegal with no 
punishment?
    Mr. Amey. Oh, I think there has to be some punishment. We 
can debate what the punishment will be, but there has to be 
some kind of civil, criminal, or administrative punishment that 
happens. I mean, currently, you know, things are marked, and at 
least with classification, there is at least a better process. 
A lot of what we have also been concerned with is this--in the 
old days, it was the FOUO--with the Controlled Unclassified 
Information, the CUI out there, is that anybody that thinks 
something can stamped ``CUI,'' they put a stamp on it. And 
then, all of a sudden, that has a dissemination control on it. 
It can't be shared, and then there's questions on, well, wait a 
second, if people can't learn about it, how can we FOIA it? But 
I think you are absolutely right. We have to figure out what 
the punishment will be, and it may be something purely 
administrative. And I am sure the other panelists have some 
ideas on it as well, but I think there has to be something.
    Mr. Farenthold. All right. So let's talk a little bit. This 
committee has had pretty good success with the IG community 
where, within each agency, there is an independent inspector 
general that does investigations. We have had success with the 
chief information and chief technology officers under FITARA. 
Is there a model in which we create within all agencies a 
classification office? Or are we better off setting up 
something outside the agency, certainly on longer term, you 
know, move something within in the National Archives, where 
there is a method for declassification?
    We will start with you, Mr. Blanton, and let anybody else 
weigh in.
    Mr. Blanton. Excellent question. All I can do is point back 
to some of the lessons of history, which are the times when we 
have had real success in forcing unneeded secrets out of the 
system was when Congress took action with the Nazi War Crimes 
records bill, with the JFK Assassination Records bill. It set 
up blue-ribbon panels outside and inside----
    Mr. Farenthold. Well, part of our problem here in Congress 
is we can do a lot of things. We need your suggestions on what 
specifically to do. I understand that that is probably more 
indepth we can get into in the 2-1/2 minutes that I have left. 
Let me let anybody else.
    Mr. Leonard, do you want to weigh in?
    Mr. Leonard. Yes, sir. I am a big advocate of the IG's 
involvement in these types of issues. Having been external to 
agencies when I was at ISOO--I was part of the Federal 
Government but yet an outsider--I was very much limited to what 
I could do when dealing with CIA or even the Department of 
Defense or what have you. IGs don't experience those 
limitations to the same extent. Plus they also have the dual 
reporting responsibilities in both the executive and 
legislative branch.
    Mr. Farenthold. So your suggestion might be expand the 
responsibility of the IGs?
    Mr. Leonard. Absolutely. There was the 2010 Reducing 
Overclassification Act, which assigned specific 
responsibilities to the IG. I believe those types of things can 
be greatly expanded, and given the proper training, IGs can 
very effective in this area.
    Mr. Farenthold. Yes, Mr. Aftergood.
    Mr. Aftergood. One hopeful sign in current classification 
policy is the growth in classification challenges from within 
the system. The current executive order allows people who have 
access to classified information to challenge its 
classification status and to say: Wait a minute; this shouldn't 
be classified.
    In the most recent year, the number of internal 
classification challenges reached a record high of more than 
900. And of those challenges, more than 40 percent were 
granted. That is a trend that I think could be built on. If the 
system can be made more and more self-correcting where people 
inside the system themselves are finding errors and helping to 
adjust them----
    Mr. Farenthold. One final question before I am completely 
out of time. This committee and other committees often get 
classified information in response to our requests for 
information as part of our oversight responsibilities. Do you 
think it would be appropriate to create a mechanism for 
Congress once we have read that and said, ``This is crazy, this 
doesn't need to be classified,'' do you think Congress should 
have the ability to declassify material? Does anybody think we 
shouldn't?
    Mr. Leonard. I believe Congress should. In fact, some 
committees by virtue of rules have empowered themselves with 
that option yet, to my knowledge, have never been acknowledged. 
It is a dicey issue, but two coequal branches of government and 
each have the----
    Mr. Farenthold. Mr. Amey, you look like you wanted to weigh 
in.
    Mr. Amey. Well, in the final CUI rule that is one of the 
things that we fought for. Originally, there was only allowed 
to be a challenge internally, and we fought that it could 
beinternally or externally. So, yeah, I would think that the 
same process should be applied to classified information as 
well.
    Mr. Farenthold. Thank you. I see my time is expired.
    Mr. Hice. I thank the gentleman.
    The chair now recognizes Mrs. Watson Coleman for 5 minutes.
    Mrs. Watson Coleman. Thank you very much, Mr. Chairman.
    And thank you to each of you for raising what I think is a 
very important, complex list of issues, actually. And I 
recognize that we need to be talking about security first. We 
need balance. We need accountability. And we need fairness. And 
so this is a huge area with so many people interacting. In many 
cases, there is a disagreement among agencies and within 
agencies. And a lot has to be done here.
    I wanted to ask a series of questions, and so I hope that 
you will answer them as sort of succinctly as possible, 
recognizing that you are only going to give me sort of the top 
lines.
    I want to start with you, Mr. Blanton, because you 
testified about the recommendations of the Moynihan Commission 
more than 20 years ago, and I just want to have a reaction from 
you as to why you think Congress has not moved to fix this 
classification system.
    Mr. Blanton. I am no expert on Congress, and I assume that 
you could give a far more sophisticated answer to that than I 
could. I think Steve Aftergood, I think, testified at one of 
the congressional hearings back in 1998, and that was when 
Senator Moynihan was alive and Senator Helms was alive. They 
were in powerful positions, and even they didn't push through 
their recommendations. My own sense is there wasn't enough of a 
notion of crisis, and we have got a crisis today I think in the 
classification system.
    Mrs. Watson Coleman. I think that you are quite accurate on 
that, that we may be in a situation right now where we are in 
an unprecedented environment.
    Mr. Aftergood, would you like to comment to that?
    Mr. Aftergood. You know, the Moynihan Commission report 
itself included an appendix of previous studies from previous 
decades that had also not solved the problem, and here we are 
20 years later looking back at the Moynihan Commission. I think 
it may be that the recommendation didn't quite capture the 
issue properly, and it seems to me that a law on secrecy is a 
means to an end. It is not the end. I would think about what is 
the end that you really want and then go for that. And the end 
that you really want is greater congressional control over what 
is or is not classified. Focus on that. Go for that. If there 
are particular areas, particular topical areas that need 
classification, declassification, mandate their 
declassification.
    Mrs. Watson Coleman. So probably the end result should be 
the kinds of things that I sort of mentioned when I opened up, 
the issue of security and balance and fairness and 
accountability, and how we get there.
    Mr. Blanton, again, you talked about a possible reform that 
could be made by statute. One of those would be to implement a 
life cycle of secrets. Would you talk to me a little bit about 
what that is?
    Mr. Blanton. In the most straightforward version, it was in 
the Freedom of Information amendment, like a 25-year sunset for 
deliberative process. The reality of our classification system, 
one of the reasons it is entering crisis is we have got a 
tsunami of electronic records. The volume is--we are talking 
petabytes of information. We are not going to be able to do 
page-by-page review, which is what our declass system currently 
consists of. We are going to have to build in automatic 
releases for entire categories of records without review.
    Mr. Blanton. And that, I think, is going to be the only way 
to deal with those electronic records. So life cycle is just a 
kind of summary term to say you've got to put sunsets on the 
secrets, you've got to have better decisions on the front end 
that build in the sunsets, and then automatic release. 
Otherwise we're sunk.
    Mrs. Watson Coleman. I believe it was your testimony that I 
read where you said within this age of technology we can take 
care of those things that are sensitive in nature, personal 
information that could be deleted automatically if it's 
programmed to do so.
    Mr. Blanton. Yes, ma'am. That's the big holdup right now in 
releasing the State Department cables. They say they've got to 
look at every single cable to make sure there's no Social 
Security number or personal phone number in there. Well, I 
can't think of something that is more easily automated than 
searching and removing a Social Security number.
    Mrs. Watson Coleman. So help me to understand this, because 
I am a relatively new member. And I want to ask two questions 
here.
    Number one is, is it currently a situation where each 
agency is responsible for classifying its information even 
though that information might be shared with other agencies and 
involve other agencies?
    And, lastly, and anybody can respond to this, is there a 
proposal where this sort of classification consideration would 
go into a sort of multidisciplined entity where those things 
could be vetted under standards and circumstances and then sort 
of move in a way that agencies can sort of agree on the ground 
levels and would reduce the amount of classification?
    Mr. Blanton. That entity exists. It was recommended by 
Moynihan. The Congress and the Presidents put it--it's called 
the National Declassification Center. But the reality is it 
doesn't have the power, maybe the will, to override those 
agencies. So you get a constant equity referral where the 
agencies all get a bite at the apple. And one of the 
recommendations in my testimony is empower that center. Make 
the decisions. Do a sunset. If something's older than 25 years, 
that center should be able to review it.
    Mrs. Watson Coleman. So does that empowerment require our 
legislative--my last--I'm sorry--does that require our 
legislative action to reconfigure this and empower in a 
different way?
    Mr. Blanton. Yes, ma'am.
    Mr. Leonard. Absolutely.
    Mrs. Watson Coleman. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hice. I thank the gentlelady.
    The chair now recognizes Mr. DeSantis for 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    I appreciate the testimony and the invitation for Congress 
to be involved in this. But I want to just start at the 
beginning and just ask everybody, does everyone agree that at 
some level the executive does have inherent authority under 
Article II as part of the executive power to maintain secrecy 
of information related to the national security?
    Mr. Leonard.
    Mr. Leonard. Absolutely.
    Mr. Aftergood. Yes.
    Mr. Blanton. Yes, but. Because there's an Article I that 
says Congress makes the rules to govern the military, Armed 
Forces, and national security. So it's both.
    Mr. DeSantis. Well, it's both, but I think Hamilton when he 
talked--because there was a debate whether you should even have 
a single executive. They had revolted against George III. Some 
proposed a council. And one of Hamilton's main arguments for 
why you needed a single executive was for secrecy, particularly 
with regards to national security.
    So there's got to be--I mean, is there anyplace, I guess, 
that Congress can't go into that? Or could Congress basically 
legislate as far as it wants, in your judgment?
    Mr. Blanton. It can legislate as far as it wants. Congress 
has the power of the purse. That is the key. And I think the 
Founders said separate the power of the purse from the power of 
the sword. That's key. Takes money to run a----
    Mr. DeSantis. Well, I think that's--I think--absolutely. So 
the Congress could abolish the CIA if they wanted to. There's 
no requirement you have that. But we do have intelligence 
agencies. We do that. Could Congress just pass a statue saying 
declassify as much sensitive stuff as we want? Would there be 
any constitutional concern with doing that?
    Mr. Blanton. None. And Congress has already done so with 
the Nazi war crimes, which exposed the files of Nazis that the 
CIA recruited and brought to the United States. So Congress has 
already done that.
    Mr. DeSantis. But when did they do that, though?
    Mr. Blanton. In 1998 and 1999.
    Mr. DeSantis. Yeah, well, but I guess my point is, if 
Congress wanted to start declassifying things that were germane 
and ripe right now with how our government's conducting 
sensitive operations, you say that would still be okay even 
though it could jeopardize lives?
    Mr. Blanton. It would still be okay because my bet is that 
this Congress and this committee would act pretty judiciously 
on that. You're not going to willy-nilly, you're not Julian 
Assange.
    Mr. DeSantis. No, I get it. But what I'm trying to figure 
out is if there's a----
    Mr. Blanton. I have a lot of confidence in your judgment.
    Mr. DeSantis. Well, but there's certain constitutional 
prerogatives. We obviously have the power to legislate, of 
course the purse. The executive has certain--or, I mean, the 
executive power means something. I mean, there's certain 
things.
    And so what I'm trying to figure out is are there certain 
places--because I think we all agree some of this stuff is 
ridiculous. And there's an incentive to just simply take on 
more--some of this stuff isn't even classified that's being 
protected.
    But at the same time I just think it's important to 
recognize that there is a legitimate reason to do it, because I 
think when you overclassify, I think that actually undermines 
the core reason of why you want to do it.
    But let me just get you, Mr. Amey, down on the end.
    Mr. Amey. I totally agree. I do believe that there's a 
constitutional protection for secrecy. But at the same time, as 
Tom said in his statement, I think you have to get to his point 
number three, and that is don't trust it. I mean, eventually 
we're going to have to get down to a point where, whether it's 
through the challenge process or through briefings that 
Congress gets, on questioning what the executive branch is 
doing.
    Mr. DeSantis. So you look at some of these things, some of 
these agencies, the Antitrust Division at the Department of 
Justice, the Bureau of Prisons has somebody who's an original 
classification authority.
    Mr. Leonard, how did it get to be that point? Is that 
really necessary in those instances?
    Mr. Leonard. It's an example, perhaps, of--when I was in my 
position at ISOO one of the things I had to do was to deal with 
requests for agencies to get original classification authority. 
And, quite frankly, one of the issues that I had to contend 
with is it was one of convenience more than anything else.
    And there were a number of instances where there were 
agencies or even small activities looking for original 
classification authority that had to push back because they 
were looking to really accomplish something that probably could 
have and should have been accomplished through legislation if 
there was really a legitimate reason to withhold information 
from public disclosure.
    Mr. DeSantis. How do you analyze? Because some of this 
stuff, it's just the agencies are embarrassed, they don't want 
to do it, and it's clearly just--it's not credible. But 
sometimes when you're trying to get information from FOIA or 
Congress, I mean, you are diverting the executive from kind of 
their core mission, actually do good. I mean, we're the first 
ones to criticize the government when they screw up or when 
they're not competent.
    And so how do you do this in a way that's not going to 
impose too many costs? I mean, for example, if we're going to 
always review every 10 years some of this stuff, that is going 
to create some costs. So how would you recommend we strike that 
balance? Is that a valid concern?
    Mr. Leonard. It very much so is. And one way would be to, 
as Mr. Blanton referred to, was to consolidate authority and 
responsibility and not spread it so far and wide within the 
government.
    I'll give you a perfect example. When I was in the 
Department of Defense, I could write a memo and use CIA 
information. The CIA trusted me to properly classify the 
information. They didn't want to look at it and whatever.
    If I came back 20 years later and wanted to work at the 
National Declassification Center and looked at my same memo, 
they wouldn't allow me to declassify it because I didn't get a 
paycheck from CIA.
    That type of redundancy can be beaten out of the system and 
it would result in significant cost savings.
    Mr. DeSantis. Great. I yield back.
    Mr. Hice. I thank the gentleman.
    The chair now recognizes Ms. Kelly for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair. And thank you for holding 
today's hearing on this important topic.
    I believe that secrecy is a serious problem that is 
widespread in the Federal Government and that it goes beyond 
classified information. For instance, there's a category of 
pseudoclassification that has exploded over the last 15 years 
called controlled unclassified information. I understand there 
may be as many as 100 different designations in use, but the 
label ``sensitive but unclassified'' is one of the worst of 
offenders.
    First, I want to get a sense of the extent of this problem. 
The Information Security Oversight Office annually reports how 
many classification decisions agencies make. However, there is 
not a corresponding section on how many decisions were made to 
designate materials as controlled unclassified information.
    Mr. Leonard, you previously served as the director of ISOO. 
Are agencies required to track how many materials they 
designate as controlled unclassified information?
    Mr. Leonard. Quite frankly, I'll defer to one of my 
copanelists because I've been away from ISOO since they assumed 
that responsibility and have not followed it that closely.
    Mr. Aftergood. I would say that there has been significant 
progress compared to where we were 10 years ago. It used to be 
that anybody could mark any document anything. You could say 
this is for official use only and that would restrict its 
access.
    Now, under the executive order on controlled unclassified 
information, there is what's called a CUI registry, and only 
those markings that have been approved and validated can be 
used. And there are many things, of course, we want to protect. 
We want to protect tax returns. We want to protect privacy 
information. All those kinds of things have been validated, and 
only those markings that are on the CUI registry are supposed 
to be used.
    Now, is that system working perfectly? Are people bending 
the rules? I don't know the answer to that question. It just 
went into force very recently, and we're still waiting to see 
how it's working. But I think the policy has improved 
substantially over the past decade.
    Ms. Kelly. Would you estimate that more information is 
designated as CUI than is classified?
    Mr. Aftergood. I don't know the answer to that.
    Mr. Amey. I don't think we know the answer to it. Agencies 
are going to be required to report how much information is 
marked. They did boil the over 100 categories down to 20. 
However, there are 80 subcategories. And so at that point you 
still end up with a real patchwork of designations and markings 
that can be placed on documentation.
    The big thing with it also is there's going to be better 
training. ISOO is doing a very good job, and I have to applaud 
them, because they actually reached out to our community and 
worked with us on the rules. As it went through the process, 
they really did work with the agencies to try to get it. But 
they didn't--I don't think they realized how big that this had 
expanded within agencies. And there was a lot of foot dragging 
by Federal agencies as well.
    So as Mr. Aftergood said, it was only in effect, I think, 
as of mid-November, something like that. And so at that point 
we're going to have to wait and see. And full implementation of 
the CUI regulation isn't expected to be completed until 2017, 
'18, '19. So at that point it's going to take a very long time 
to probably get some answers on it. But it needs the proper 
oversight from this committee.
    Ms. Kelly. I know you called it a gray area, because I was 
going to ask you what do you think the potential for abuse is.
    Mr. Amey. We've already seen some abuses. In my written 
testimony I provide two examples, and one was even an IG report 
in which there were examples involving the TSA. Also, the 
bizarre case of Robert MacLean in which something was marked 
SBU. It was actually the original CUI. And so at that point 
something was marked SBU I think 4 years after he released it, 
even though it didn't have any marking or designation, but they 
retroactively marked that information as SBU. So there are 
problems in the system and it is prone to abuse and so we do 
have to watch it.
    Now, the nice thing with the CUI rule is that there is a 
misuse provision, and so that may be something that can be 
borrowed upon for the classification system that we should look 
at since it's already in regulation. And also the challenge 
procedure. But, again, challenges go back to the agency, and 
then I think you have a right to dispute resolution. So it's a 
little murky due to the fact that you're, in essence, going 
back to the fox guarding the henhouse that may have originally 
marked it. So there are some concerns with that.
    Ms. Kelly. Mr. Blanton, you keep shaking your head. So I 
want to give you opportunity for comment.
    Mr. Blanton. I agree.
    Ms. Kelly. Okay. I yield back the balance of my time.
    Mr. Hice. I thank the gentlelady.
    The chair is now going to recognize himself for 5 minutes.
    I want to go back to something that came up a little while 
ago, and that is the number of classifications. Over the last 5 
years some 400 million, and yet only a little over 2,300 in the 
same 5-year period have been challenged. And those numbers can 
be debated a little bit here and there. But whatever it is, 
2,300 out of 400 million is virtually no challenges whatsoever.
    Just real quickly, just a sentence or two, why so few 
challenges? Mr. Leonard, I'll start with you.
    Mr. Leonard. Mostly one of culture. When I was in the 
Pentagon, when I had reports in my inbox, if I had an 
unclassified report and a top secret report, which one would I 
read first? The top secret one, even though the unclassified 
one may be more substantive. So sometimes it's just as simple 
as just sheer culture, People get inured to it and just expect 
nothing else.
    Mr. Hice. Mr. Aftergood.
    Mr. Aftergood. In many cases, employees are not aware of 
the challenge provision that enables them to make this 
challenge. And that's one simple step that can be taken to say, 
look, as soon as you sign your nondisclosure agreement, you 
also sign, ``I'm aware that I can challenge a classification 
marking that I believe is improper.''
    I would also mention that I think your hundreds of millions 
figure is including original and derivative classifications. 
The number of original classifications or entirely new secrets 
has been on a steady downward trajectory.
    Mr. Hice. I don't want to get into a number right now.
    Mr. Blanton, why so few challenges?
    Mr. Blanton. It's easier just to classify. And much 
classification just occurs reflexively. And most of those 
derivative classifications it's just keep it going. Because 
there's not a thought process on the front end of the first 
decision. What's the cost benefit? What's the real risk? What's 
the vulnerability? What's that? And you've got to educate them 
at the nondisclosure agreement point, but I would argue you've 
got to put it in a statute.
    Mr. Hice. All right.
    Mr. Amey.
    Mr. Amey. And just quickly, it could be career suicide. I 
mean, at this point we have insider threat investigations that 
could take place, and also whistleblower retaliation. So a lot 
of the times, as Mr. Blanton just said, it's a lot easier just 
to go along with the process than to question it.
    Mr. Hice. Okay. So it's not a matter of red tape. Perhaps 
poor advertisement, people don't know, perhaps a culture, or 
whatever. But red tape is not the problem, is that correct, all 
of you would agree with that?
    Mr. Leonard. Oh, absolutely. And, again, a lack of 
accountability is key too.
    Mr. Hice. Okay.
    Now, when it comes to--obviously we know there's been a lot 
of threats to our country, and I'm concerned about the lack of 
information sharing within our Federal Government.
    A scale of 1 to 10, how serious of a problem is this, to 
each of you?
    Mr. Aftergood. I think it was 10 around the time of 9/11. 
It's 5 now. In other words, there has been significant 
progress.
    Mr. Hice. Okay. The rest of you?
    Mr. Leonard.
    Mr. Leonard. I would tend to agree, but my sense is that 
there's also been a rollback with respect to some of the recent 
rather significant wholesale compromises that have occurred as 
well too.
    Mr. Hice. All right. Mr. Aftergood, how serious of a 
problem?
    Mr. Aftergood. It's a serious challenge. When you classify, 
you restrict dissemination. And so they're the flip side of 
each other. It's an ongoing problem.
    Mr. Hice. Mr. Amey.
    Mr. Amey. Agreed.
    Mr. Hice. All right. So across the board we still have a 
serious problem. There may be some improvements. But we still 
have a serious problem with sharing information, even when 
potential threats are hanging in the balance of our country. 
And in the mix of all of that, also came up earlier is the 
ability of Congress to do our job.
    How serious is the issue or is it at all an issue where 
agencies are overclassifying to either complicate or obstruct 
congressional oversight? I'd like to hear from each of you 
quickly.
    Mr. Aftergood. Honestly, you're probably in a better 
position to answer that. I think it's the exception, not the 
rule.
    Mr. Blanton. I think it varies by agency. And I think the 
intelligence community has the, in a sense, the worst cultural 
problem. You've got to go into that SCIF. You can't bring out 
notes. You can't have staff. How are you going to have a 
serious consideration of real oversight over some of the most 
important and sensitive and deadly operations of our entire 
government?
    Mr. Hice. All right. Real quickly.
    Mr. Leonard. It inevitably occurs, whether intention or 
not. And, again, the lack of accountability makes it ripe for 
abuse.
    Mr. Amey. And it's why in any oversight or any new 
commission that is going to be paneled here to take a look at 
classification and the status and secrecy issues, is why you 
have to get out of just the check-the-box kind of audit on are 
people following procedures, but take a look at some specifics 
where challenges have been raised and why those things were 
allowed to be overclassified.
    Mr. Hice. And when we do get stuff, it's so redacted it's 
virtually worthless much of the time. So a serious problem.
    I again want to thank the panelists. My time has expired.
    The chair will now recognize Mrs. Maloney for 5 minutes.
    Mrs. Maloney. Thank you, Mr. Chairman and Ranking Member.
    Mr. Blanton, earlier you mentioned the Nazi War Crimes 
Disclosure Act. That happened to have been a bill that I 
authored. It took about 4 years to pass it because the CIA was 
objecting. It opened up the files of Nazi Germany and Japan 50 
years after the war.
    Now, every other country had opened their files, but we 
were refusing to, and it took Congress to pass a bill to open 
up these files. It's been turned into books. It's been turned 
into all kinds of helpful information that's helped our defense 
strategies and how to operate in an environment as they did.
    But I want to ask you about another way of classifying, 
which is retroactively classifying. And I join you in saying 
there was no reason why we shouldn't have declassified that 
information. But on September 8 of this year, State Department 
Under Secretary for Management Patrick Kennedy, testified 
before this committee about a unique process in the State 
Department used to retroactively classify 2,000 of Secretary 
Clinton's emails that she turned over to the State Department.
    In other words, they were not classified at the time they 
were sent or received by her, but then they were reclassified 
after the fact by staff in the Department of the FOIA office. 
And Patrick Kennedy testified that 1,400 of these documents, or 
70 percent, were retroactively classified because they 
contained what is known as foreign government information.
    So my question is, it seems to me that this is a confusing 
process. Foreign government information is not treated like 
classified information until it's reviewed for public release, 
and then all of a sudden it's classified. It seems to me we 
should have one standard. Why have one retroactively? It makes 
no sense. And how are State Department employees supposed to 
know when to treat information as classified and when not to if 
the designation might change without warning?
    Mr. Blanton. I read Mr. Kennedy's testimony with great 
interest because he asked this committee to create an exemption 
under the Freedom of Information Act for foreign government 
information, which I think is a terrible idea, for three 
reasons. One, it puts Tajikistan standards into our freedom of 
information law. No, thank you. The lowest secrecy abroad.
    I think second reason is if there's harm from release of 
that foreign government information, it's protected already 
under our executive order. You can classify it.
    And I think the third reason is that's the easy way out. 
Instead of our diplomats actually thinking about how you 
protect stuff that actually would get us into trouble, they 
don't want to think about it.
    And I'd just remind you of the Weatherhead case went all 
the way to the Supreme Court over foreign government 
information. Finally it got booted out. It turned out the 
document at issue had already been handed over to the plaintiff 
and the government had no idea. And it wasn't going to damage 
our relationship with Great Britain, which is where the 
document came from. So skepticism is in order.
    Mrs. Maloney. Well, I agree with you, and I truly 
understand the need to protect truly sensitive diplomatic 
discussions from public release. But using the classification 
label to do that makes the classification system even more 
confusing and, I would argue, less effective. And we need to 
find a better solution.
    So with that statement, I'd just like to ask all of the 
panelists in my remaining time, do you have any recommendations 
of how to improve this process? And we could start with you, 
Mr. Leonard, and just go right down the line.
    Mr. Leonard. The consistent theme this morning, and I agree 
with it wholeheartedly, is providing legislative backing to the 
very system in order to ensure uniformity, consistency, and 
most of all accountability. And also to facilitate the Congress 
to be able to fulfill their Article I constitutional 
authorities as well.
    Mr. Aftergood. The government requires a degree of 
flexibility, and so I would be cautious about strict provisions 
that remove such flexibility. Information that is provided in 
confidence needs to be protected somehow if one wants to 
maintain that working relationship. Classification seems like a 
heavy-handed way to do it, but if the alternative is a blanket 
FOIA exemption, then that might not be better. So I don't have 
a good solution for you offhand.
    Mr. Amey. When it comes to retroactive classification, I 
think we need a study. I'm not aware of anything in depth or 
comprehensive in taking a look at the issue on the whos, whys, 
wheres, whens. And so I think that would be in order.
    Mr. Blanton. The fundamental phenomenon on retroactive is 
being driven by agencies like what Mr. Leonard said, CIA 
asserting control and no longer allowing the Defense Department 
or State to declassify their own information.
    Mrs. Maloney. Okay. Thank you very much.
    Mr. Hice. I thank the gentlelady.
    The chair now recognizes Mr. Massie for 5 minutes.
    Mr. Massie. Thank you, Mr. Chairman. I'm so glad we're 
having this hearing today. I've been looking for the 
opportunity to talk about something that's very important to 
me, and I'll be very careful not to disclose anything that's 
classified.
    About a month ago I went back down to one of those SCIFs 
that Mr. Blanton was talking about. You can't take notes out. 
And what I did is a reread the 28 pages, but I brought the 
redacted version with me so that I could see in what manner it 
was redacted. By the way, I want to ask you guys a question 
later so you can get ready with an answer.
    But one of things that I would think would help is to know 
the reason for the redaction. There's certain reasons that 
might be legitimate, and maybe a law that says when you redact 
large swaths or even small portions, that you have to give the 
reason. If the reason is to avoid embarrassment or to protect a 
source or to protect somebody who may not be guilty, their 
public reputation, just disclose it, and then the crime or the 
infraction could be that you lied about the reason.
    Because that's what I want to get to with these 28 pages 
and the reason for those redactions. And I think I can disclose 
my perceived reason for some of these redactions without 
disclosing anything classified.
    Twenty percent of the redactions, I would say, were to 
protect specific and confidential sources. I would say another 
20 percent were to withhold the names of individuals whose 
reputations would be irrevocably ruined, whether they were 
guilty or not.
    But 60 percent of those redactions fall into a very 
troubling category for me. They changed the very nature of the 
document and the way it's perceived by the public and the 
impact that it should have had.
    Some of those are probably to prevent embarrassment.
    Mr. Massie. But I feel like--after reading that--10, 20, 40 
years from now, when it's all released, this is going to be a 
textbook case of how the government overclassified something in 
an effort to control the narrative. In fact, before these pages 
came out, there was an op-ed in the USA Today by two of the 
chairmen on the commission that said these are raw, unvetted 
sources. Right? So the redactions, in my opinion, were made to 
support that presumption that these were raw, unvetted sources, 
because if you removed the redactions, you would say: No. Those 
might be credible sources, in fact. And they might, in fact, be 
vetted.
    So that's my concern is that, you know, 20 years from now, 
we'll look back at this, and you'll see that key words and 
acronyms and sentences were removed and with the effect--with 
the effect--of diminishing the impression that you get from 
reading the unredacted pages, which is that Saudi Arabia--and I 
can say that name now because it's in the redacted pages--has 
some kind of civil liability or criminal culpability either--
and not because of their citizens but because of their 
government acted either in, I would say, acts of omission or 
commission. Either one makes them somewhat culpable. And I'm 
afraid that has been diminished by those redactions and it's 
been overclassified, and this is a prime example.
    So one of the questions I want to ask is, do you think it's 
a good idea if we required them to give the reason for the 
redaction?
    Mr. Leonard. Absolutely, sir. The order does require 
original classifiers to be able to identify and describe the 
damage to national security. But to my formal statement I 
attached an actual email that had been used as count one for a 
felony indictment of Mr. Drake, who was eventually not 
prosecuted. But the government claimed it was classified. And 
in preparing for the trial, the NSA was required to say--state 
specifically why they considered that email to be classified. 
Their explanation looked entirely rational when you read it, 
but if you compared what they said to the actual document, it 
was factually incorrect.
    Mr. Massie. Right. So that supports the notion that they 
should be required to disclose it, and there should be some 
punitive ramification for misleading about the reason.
    Mr. Aftergood?
    Mr. Aftergood. I would like it to--to make the point that 
the classification system is permissive. It says that 
information may be classified if it meets certain conditions. 
And what that means is the decision to classify is actually a 
subjective one. Somebody thinks that classification is the 
right move. And because it's subjective, you or I may disagree 
and say: You know, that's a mistake. You're wrong.
    And so providing the reason, I think, would be helpful. But 
it wouldn't necessarily resolve the disagreement. I just 
disagree with that reason. Instead, I would suggest that, in 
cases of significant interest, like the 28 pages, like many 
other cases, there needs to be a procedure where you take the 
decision away from the original classifier. Don't try to make 
the original classifier admit he was wrong. Take the decision 
away. Take it to a third party. There's a public interest 
declassification board. There may need to be a new body and 
say: Does this make sense? I want you to evaluate it as a third 
party and come back to us with a recommendation.
    Mr. Massie. Mr. Chairman, I appeal to let the other two 
answer the question.
    Mr. Hice. You can answer.
    Mr. Blanton. Just very briefly, exactly this mechanism 
exists for mandatory review requests, this interagency security 
classification appeals panel. And it's ruled in favor of 
openness over 70 percent of the time. Just a third party. The 
simple maneuver of taking the document away from the original 
agency and putting it in a panel that includes the original 
agency, you get a completely different result.
    Mr. Massie. Mr. Amey.
    Mr. Amey. And this is also a process with the Freedom of 
Information Act. There is a process there where just only a few 
years ago did they add where they had to list the reasons. In 
the old days, we used to just get a letter back with tons of 
blackened-out markings. And then, in the intro, they would say: 
We redacted things for, you know, B3, 4, 5, 6, 7. And you had 
to kind of guess what applied to one specific redaction. Now 
they're required to go through documents subject to the Freedom 
of Information Act and list right next to each redaction what 
the redaction--what exemption was being cited to justify the 
reason for that. And also then you also have an administrative 
appeal that we hope--we always hope--that it goes to a 
different entity inside of the department rather than the 
person that made that marking. And then now there's also a 
process through ISOO to challenge those determinations and go 
to an, in essence, an arbitration. And so it's funny that we 
have a better procedure just for that Freedom of Information 
Act process than we do for the classification process.
    Mr. Massie. And I've seen those documents with those 
markings. And they're somewhat helpful because they classify 
the stuff they even send to us, they try to not even disclose. 
So but I haven't seen that on the 28 pages. I've just seen op-
eds that say: Oh, there's nothing to see here.
    And by the way, it was released the day before Trump named 
his Vice President, which is another thing. But at least it was 
released in part.
    Thank you.
    Mr. Hice. Thank the gentleman.
    The chair now recognizes Mr. Connolly for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    And thank you all for participating. I guess I'd like to 
explore a little bit what happens when two agencies disagree 
about something being classified at all. And this is not a 
hypothetical? In a recent investigation of emails, we had 
multiple examples where the State Department said one thing and 
the intelligence community said another. Specific example, 
really quite, I think, quite striking: A 2011 email sent by a 
State Department employee about the late Ambassador Chris 
Stevens of Libya was marked clearly ``sensitive but 
unclassified.'' The Under Secretary for Management, Mr. Patrick 
Kennedy, confirmed in testimony before the committee that the 
State Department considered the email unclassified and that 
anyone reading the email would assume it was not classified. 
But after the email was sent, the intelligence community 
nonetheless claimed it was classified.
    And so, in September of last year, the State Department 
sent a letter to Senator Corker, the chairman of the Senate 
Foreign Relations Committee, explaining that the intelligence 
community was wrong. The letter from the State Department 
stated that the suggestion that the email should have been 
treated as classified was, and I quote, ``Surprising, and in 
the Department's view, incorrect,'' unquote. So what's a poor 
boy to do? Is it classified, or isn't it?
    Mr. Leonard. As has been mentioned, sir, there are appeals 
processes in the system, but they're admittedly rather 
cumbersome and time-consuming. But Tom Blanton referred to the 
Interagency Security Classification Appeals Panel. I used to 
serve as the executive director of that. Interestingly enough, 
last year for the year that the full last numbers are 
available, for appeals that came to that panel, which consists 
of executive branch representatives from various agencies, 95 
percent of the time the determination made by the agency that 
owned the information was overridden at least in part or in 
whole--95 percent of the time, since 1995----
    Mr. Connolly. Yes, but in this case, Mr. Leonard, the 
originating agency didn't want it to be classified.
    Mr. Aftergood. I think the short answer to your question is 
that each agency has classification authority over its own 
information. And in the dispute you're referring to, I think 
the intelligence community considered that the information at 
issue was its information, even though it was in the State 
Department document----
    Mr. Connolly. And the State Department----
    Mr. Aftergood. The State Department said: No, it isn't.
    Mr. Connolly. That's right. The State Department took 
direct issue with that saying: We understand that's what you 
think, but that's not how we got the information.
    Mr. Aftergood. Yeah.
    Mr. Connolly. And then we could even add another layer. So 
let's hypothetically say we invite the FBI, a nonpolitical 
organization, to come and look to see if there were violations 
of our secrecy laws. Well, how is it supposed to determine 
whether a violation occurred when the two major agencies or 
entities looking at classification have unalterably different 
views about the nature of the document, the sourcing of 
document, and what it should be classified as?
    Mr. Blanton. Part of the problem for the Federal Bureau of 
Investigation is it's part of the intelligence community, so it 
leans one way on that question. And the real answer to your 
question, is it classified or is it unclassified, the answer is 
both. And that's the reality of our classification system. I 
showed you documents here that are both classified and 
unclassified simultaneously because different people or 
different agencies or sometimes the same reviewer came to a 
different conclusion.
    Mr. Connolly. I know. But there's a certain, Mr. Blanton, 
Kafkaesque quality to this. I mean, I was a staffer on the 
Senate Foreign Relations Committee a long time ago. Right? And 
we were very careful about classified material and how it was 
stored and make sure it was never on your desk, and as are 
executive branch employees. Well, if I got one agency saying 
that's--you know, ``Give it to your grandmother; I mean, it's 
unclassified,'' and the other one saying, ``Don't you dare; 
it's classified,'' what's my liability as an employee? I'm 
trying to be diligent. What is it? And am I exposing myself by 
leaving it on my desk, for example?
    Mr. Aftergood. The executive order on classification 
includes provisions for resolving disputes about implementation 
of the order. Ultimately, those disputes can be directed to the 
Attorney General and, you know----
    Mr. Connolly. Yeah, but, Mr. Aftergood, that's not how it 
works practically.
    Mr. Aftergood. It's not. No.
    Mr. Connolly. Somebody goes around--listen, I was in the 
private sector and I was the OODEP. I was the head of all of 
this for a private sector entity. We went around checking to 
make sure nobody was sloppy. And that's not going to go to the 
Attorney General. You've got a ding on your mark, Mr. Blanton, 
because I saw that document on your desk. Well, in good faith, 
you were counting on the State Department judgment it was not 
classified. There was no issue. And I'm deciding as, you know, 
the security chief that I don't care; the intelligence 
community is what I listen to, and they said it is. I mean, it 
puts people at risk. And, frankly, I'm glad it could be 
arbitrated at some point, and I'm certainly glad the Attorney 
General can ultimately adjudicate. But if we're talking about, 
you know, thousands of documents, thousands of judgment calls, 
I think you mentioned it was subjective, but disputes between 
agencies are a real dilemma for people trying in good faith to 
comply with the law.
    Mr. Aftergood. You are absolutely correct. And the 
arbitration is really a technicality. The reality is that these 
kinds of disputes drive the issue to the lowest common 
denominator. They result--when there's doubt, they end up 
adopting the view that it's classified.
    Mr. Connolly. Thank you.
    Mr. Blanton. And the executive order says, when there's 
doubt, it should not be classified. And exactly the opposite 
happens. So my answer to your question: Send it to your 
grandmother. Send it to your grandmother.
    I have an opinion from Mr. Leonard when he was the head of 
the Information Security Oversight Office, he said: If the 
National Security Archive got a version of this document under 
legal authority, declassified with somebody with the power to 
do that, you can take it to the bank. You can keep it on your 
Web site. Even if somebody else at the Energy Department or 
Defense says, ``Sorry, Mr. Blanton, that's classified,'' no, 
wrong. Send it to your grandmother.
    Mr. Hice. Thank the gentleman.
    Now recognize Mr. Grothman for 5 minutes.
    Mr. Grothman. Sure. First question I have, and this is 
really for anybody that wants to answer it. In the stuff that 
we have here, we're told the government spends $16 billion on 
classification activities and $100 billion over 10 years, which 
is a stunning amount of money. And if it's $100 billion over 10 
years, it must be going up like a rocket. And I assume that 
means like $5 million 10 years ago and $16 million today. Does 
anyone care to comment on, is that a good investment of funds? 
And how do you wind up spending that amount of money? I mean, 
it just seems like a phenomenal amount of money. Do you think 
it's accurate?
    Mr. Leonard. That's a difficult thing to evaluate. Let's 
put it this way. I spent many a year in the Defense Department. 
And I had to deal with the consequences of major failures, 
major compromises in espionage cases and things along those 
lines. And what the challenge is, is that, whether rightfully 
or not, the mentality is, is zero tolerance for those types of 
things. How many espionage cases are you willing to endure? How 
many major leaks or releases of--unauthorized releases are you 
ready to endure? The mindset is zero tolerance. And as a 
result, there tends to be a lack of risk management. And when 
you have a lack of risk management, you end up paying premium 
dollars then.
    Mr. Grothman. Even though those numbers are accurate 
though: $16 billion bucks----
    Mr. Leonard. Those numbers are at least accurate from the 
point of view that they show, I think, consistent trends from 
year to year.
    Mr. Grothman. Okay. We have a new ISOO director, Mark 
Bradley. Does anyone want to give us their opinion? Do you 
think that's a good pick? And what goes into making a good 
pick?
    Mr. Aftergood. You know, it was never going to be an 
openness advocate who led the ISOO. But I think Mr. Bradley is 
a good pick because he has a broad understanding of the 
problems of secrecy. He was an aide to the late Senator 
Moynihan and is well attuned to an understanding of the 
problems that the secrecy system suffers from. He also, as a 
former intelligence officer and a DOJ national security lawyer, 
has a degree of credibility with the national security agencies 
that others might have trouble matching.
    Mr. Grothman. Okay. Go ahead.
    Mr. Blanton. Just the proof's in the pudding. We look 
forward to meeting with Mr. Bradley as soon as he's on the job. 
You can look at the Information Security Oversight Office's 
previous Directors like Steve Garfinkel and Bill Leonard and 
Jay Bosanko, and you can see those folks made some real 
differences in the security system in a more rational 
direction. I can hope for that trend to continue.
    Mr. Amey. Certainly, we hope that they reach back out to 
our community. I mean, that's one of the nice things with all 
the gentlemen that Mr. Blanton just mentioned is they have been 
very open. There's been a dialogue back and forth, and they 
know that there is a burden on secrecy but then on openness and 
have, you know, provided the proper weight test to that. And 
that has been, I think, beneficial to the system.
    Mr. Grothman. Okay. There was an inspector general report 
in 2013 that said that 33 percent of DIA employees didn't 
understand their role. And even more outrageous in that report, 
they said 80 percent of the documents reviewed were 
misclassified. I guess, first of all, I should ask you how many 
different classifications there are, because it seems like you 
could almost throw darts at a dart board and do better than 
that. But could you comment on that and as to why that happens? 
Comment on it. Do you think things are better today than it was 
3 years ago? That seems--or maybe it was a flawed report. Can 
you--are you familiar with the report?
    Mr. Leonard. I would suspect it's not a flawed report. I 
think, based on my experience for over 40 years, that's rather 
typical. It's a reflection of, as much as we spend tax dollars 
to investigate people, to establish secure IT systems and 
things along those lines, we do not spend a comparable amount 
of money in terms of trying to train people in the basics. One 
of my concerns is, is that, you know, we make a distinction 
between original classification and derivative classifications. 
My experience has been is that when people ostensibly are 
derivating classifying information, they're actually just 
classifying information based on gut instinct, more than 
anything else.
    Mr. Grothman. Any other comments? By the way, unless I'm 
doing the arithmetic wrong--and I did it twice--on the cost of 
this thing, for that, you could hire 200,000 people at 80 grand 
compensation a year. That's how much we're spending on 
classification--200,000 people. Now, I realize some of it's for 
things, not people, and maybe some people are making more than 
80 grand a year, but my goodness. My time is----
    Mr. Hice. Thank the gentleman.
    The chair recognizes Mr. Lynch for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    First of all, I want to thank the panel for helping us 
think about this and how we might approach the problem. I had 
the pleasure of working with Mr. Massie and also Walter Jones 
on the 28 pages. It took us 15 years to get that information 
out there, which is far too long. It was interesting because, 
as we were asking for disclosure and declassification, the 
administration was pushing back and saying: No. This is too 
sensitive. We had some of the agencies saying: No. It's methods 
and sources. And then, finally, when it was eventually 
declassified, they flipped. They flipped and said: Well, 
there's nothing here. And it's--the information is not valid. 
And they took a totally different tack.
    We're now struggling with the DEA and the FBI in regard to 
classified--excuse me, confidential informants. So we've 
learned from the Office of the Inspector General for the DEA 
that we've got 18,000--they've got 18,000 confidential 
informants out there that are under contract being paid by the 
DEA, and last year, we spent $237 million paying confidential 
informants. And Congress knows zero about that. They don't know 
about the crimes they've been committing. They don't know the 
way they're operating. The DEA headquarters isn't intimately 
involved. This is all being operated at the field level. So 
that's--and that's just the DEA. From our conversations with 
the FBI, I believe that the numbers are double, probably about 
$500 million that the FBI is paying the confidential 
informants. Probably double the number. Probably in the area of 
30,000 or 40,000 informants, confidential informants. That is 
totally out of our purview.
    So I'm wondering--you know, you've all hit on this, you 
know, with the interagency panel reviewing classifications--is 
there some way to supercharge that process? Because it is 
painstakingly slow, and it doesn't work in the timeframe in 
which the information would be useful to us.
    Mr. Leonard, I know that you said that the last time 
somebody took a good swing at this was during the Clinton 
administration in your remarks, your earlier comment. Is there 
some way we can get this interagency declassification review 
panel resourced and equipped to give Congress, and I've seen--
I've seen my colleagues across the aisle tear their hair out 
when they couldn't get information, and I've been in the same 
position. Is there some way that we can formalize this process 
to get the information in a timely manner that should be 
public?
    Mr. Leonard. One way I would suggest would be to make 
provisions to allow appeals directly to that panel under 
certain circumstances. Right now, requesters have to go to the 
individual agency. If they get turned down in whole or part, 
they have to appeal to that same agency. And it's only after 
that process then that they can go to this interagency panel. 
And even that interagency panel, then, has its own coordination 
things which can be problematic, but which is a lot easier to 
address. But the individual agency time delays is--can be 
problematic. Also, for purpose of Congress, Congress does have 
the public interest declassification board that they can refer 
to. And that is another avenue that, quite frankly, I never 
believed is utilized enough. But that's another avenue.
    Mr. Lynch. Yeah. To expedite it, you know, maybe we've just 
got to figure this out legislatively to introduce an expedited 
process where the information we believe is so critical. And I 
guess, you know, I'm just thinking, is there a way to get the 
judiciary involved here so they would review--I don't want to 
create a political question that the courts can't rule on, but 
we're being stonewalled in wide areas of public interest. And I 
feel like it's hampering Congress' ability to do its job.
    Mr. Leonard. Well, one of the things is the interagency 
panel is actually exercising on behalf of the President. It's 
exercising his article II authority. And the Public Interest 
Declassification Board. Ultimately, they just make 
recommendations to the President, who makes the final decision. 
So from that point of view.
    Mr. Lynch. Mr. Amey, you got something you want to add? Or 
Mr. Blanton?
    Mr. Blanton. Yes, sir. You mentioned sources and methods is 
a blame. And then I think this goes right to you informants 
problem, and it goes right to one of the big drivers of 
classification, which is, under the current statutory system, 
anything that's a source or a method can be claimed to be 
withheld, whether or not it's release would actually harm a 
security value or get a source killed. And I think Congress can 
take very simple action, both in the intelligence field and the 
law enforcement field, to say sources and methods is not a 
burka. It should over-cover the things that would do damage, 
get somebody killed, ruin an investigation. Right now that 
identifiable harm standard, which is now in the Freedom of 
Information statute, it doesn't apply in this informants and 
sources method. It needs to apply. Congress has to take that 
action.
    Mr. Lynch. Yeah. Mr. Amey.
    Mr. Amey. And that recommendation was actually in the 
Moynihan Commission report. And it hasn't been acted on now in 
almost 20 years since. And so it may be time for Congress to 
enter that world.
    Mr. Lynch. Yeah. I know that Attorney General Reno issued 
some guidelines, but they're not being followed right now. I 
actually have legislation. I don't even want to know who the 
confidential informants are. I just want to know how many are 
out there, what they're being paid, and what crimes, if any, 
they have committed while they've been part of this government 
program. And we have had a difficult time getting that through. 
But thank you.
    That's all I have, Mr. Chairman. Thank you for your 
indulgence. I yield back the balance of my time.
    Mr. Hice. Thank the gentleman.
    The chair now recognizes Mr. Duncan for 5 minutes.
    Mr. Duncan. Thank you very much, Mr. Chairman, and, first 
of all, I want to say that--I want to go on record as saying I 
agree with Mr. Grothman in saying that I'm astounded by the 
amount of spending that's being done on this, this $16 billion 
estimate and over $100 billion over the last 10 years. I think 
we lose sight up here of how much a billion dollars actually 
is.
    But having said that, I had two other meetings, and so I 
didn't--unfortunately, I didn't get to hear your testimony. And 
I apologize if you've gone into some of this earlier. But, Mr. 
Blanton, in skimming over some of this testimony, I was 
fascinated by your report about the Moynihan Commission and 
that we went through all this 20 years ago, basically. And also 
I think the thing that impressed me the most was, I mean, there 
seems to be general agreement here today that there is a real 
problem of overclassification. But I saw where Mr. McDaniel--
who was President Reagan's national security adviser said that 
only 10 percent of what's being classified probably really 
needed to be classified. Is that correct? And why do you 
think--you mention there that this was a tremendously 
bipartisan commission. It had Jesse Helms and Daniel Patrick 
Moynihan and various others. And obviously you're disappointed 
that not--or very little was done with that--those 
recommendations. Why do you think that was? And do you think we 
should take another look at that? What do you--just go into 
that a little bit for me.
    Mr. Blanton. Yeah. I think in the testimony I quoted Mr. 
McDaniel, who the Moynihan Commission quoted, and said that 
based on my experience with few million pages of declassified 
documents, he's right, especially about the historical 
materials. I think an estimate that's closer to reality for 
current material, the material related, say, on terrorists and 
ISIS, that the best estimate really came from the Republican 
head of the 9/11 Commission, Tom Kean. He said 75 percent of 
what I read about Al Qaeda and Osama bin Laden that was 
classified shouldn't have been, and we'd have been safer as a 
country. So I think the ranges in there, the 75 to 90, it's a 
bureaucratic problem. Bill Leonard knows it better than anybody 
from both the inside and the outside. Steve Aftergood's been 
studying it for, lo, these many years. POGO. Every incentive is 
to classify. There's almost no disincentive. There are no 
penalties. There has to be--I think this is the main reason why 
Congress needs to take action. Because you all can change the 
minds of the bureaucracy and how it actually works. You can, 
you know, change the law and their hearts and minds will 
follow.
    Mr. Leonard. I actually believe that the executive branch 
and general agencies in particular actually want the ambiguity 
because the ambiguity gives them almost unlimited discretion in 
dealing with issues. And, yes, it results in dumb things. But 
it's the ultimate trump card to pull out, whether you're 
dealing with the courts, whether you're dealing congressional 
oversight or whatever. Nobody wants to be the one who 
compromises truly sensitive information. And so there tends to 
be this overdifferentiation to any sort of assertion. And more 
often than not, that's what it is; it's a simple assertion. It 
cannot be demonstrated that it truly should be classified.
    Mr. Duncan.Well, there's so many other things I would like 
to add or comment on, but Mr. Amey, I'm assuming that you--you 
know, this committee has requested through the years a great 
deal of classified material. And do you think that agencies are 
classifying some material or a lot of material that really 
doesn't need to be classified just to avoid or get around 
congressional--effective congressional oversight?
    Mr. Amey. Yes. But it's hard to know at what level. You 
know, I don't know what I don't know. And that's--
unfortunately, when something shows up and it's a blackened out 
page and it's marked ``classified'' or, you know, and then some 
FOIA exemption attached to it, at that point, it's hard to 
know. Sometimes we do get documents released to us. And at that 
point, then you can do the comparison. And so, you know, that 
can add and that can allow you to ask some questions. But, you 
know, unfortunately, with the amount of classification that we 
have, it's very difficult to put your finger on a--you know, 
the experts that have taken a look at it, the 75 to 90 percent. 
But the culture, I mean, I think that's it, is, even after 9/11 
with the 9/11 Commission, you have a culture to--the default 
setting is err on the side of caution.
    Mr. Duncan. Well, I've run out of time. But I will say 
this. We're going to have to, it seems to me, to go to much 
more of a carrot-and-stick approach on all of this and 
incentivize good behavior and penalize bad behavior in this 
area.
    And at any rate, Mr. Chairman, thank you very much.
    Mr. Hice. Thank the gentleman.
    The chair now recognizes Ms. Lujan Grisham for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    And hearing some of the comments at the tail end, add you 
may have to repeat some of that. Because representing my 
district--and, of course, New Mexico, we're home to world-class 
national security, defense, operating labs and related defense, 
both private and public sector, institutions and businesses. 
And I understand unequivocally the need for being very clear 
that sensitive, classified security aspects related to 
information, that we have to be very clear about protecting the 
integrity of the those systems and that information. Having 
this committee work on furthering our effort at transparency 
and recognizing that, across agencies, that we don't have an 
effective handle about who's determining and what parameters 
apply and what circumstances before, during, and after 
information is being shared in a variety of what I would call 
sort of post- and pre-security issues, I also worry about 
unintended consequences. And being a longstanding bureaucrat, I 
could argue either way that having ambiguity can be a 
protective mechanism to not change anything because you fear 
those unintended consequences and your own accountability, 
particularly here where national security is at stake, right? 
There's no incentive, you know, to be a little bit--to talk 
about being less risk-averse when we need better transparency 
in order to inform ourselves in a way that's productive so that 
you can do policymaking and you can increase the way in which 
we address national security issues, both in the Congress, both 
in the bureaucracy, and defend and secure the Nation.
    But I also know that it's very frustrating not to have 
clear direction so that you can make recommendations and 
include reforms. It's both.
    And so, to provide those leaders with better guidance, help 
me with some very specific ideas about balancing our efforts, 
the need for transparency and the clear issue that we have, 
which is also protecting classified secure information and the 
national security interests of this country, because my 
constituents are going to say--and they're right--be very 
careful about unintended consequences here. Because once it's 
out of the box, it's out.
    Anyone?
    Mr. Aftergood. I think one way to understand the issue is 
that classification is treated as a security function, 
understandably. The people who are making the classification 
decisions are asking about the security consequences of 
disclosure. That's fine. That makes perfect sense. The problem 
is that security is not the only consideration because 
classifying has implications for oversight. It has implications 
for public understanding, for diplomacy, for technological 
development. It can have all kinds of other implications. And 
to ask the security officer to, you know, weigh the public 
interest or weigh the diplomatic effects is totally 
unrealistic, I think. So where that takes me is that in areas 
of significant interest by Congress or the public, there needs 
to be an additional venue where this original security 
classification decision can be reconsidered in the light of 
broader issues. What is the public interest? What is the need 
for oversight? What are the undesirable unintended consequences 
of continuing to classify? Don't ask the poor security officer 
to make this complicated assessment. Take it somewhere else and 
reevaluate it in light of the big picture.
    Ms. Lujan Grisham. Anyone else? That is in and of itself 
sort of a balance and a chance for a re-review, as a lawyer and 
what I would fashion as sort of an appellate aspect. But, 
again, making those decisions and then creating the parameters 
for asking for that guidance is also a set of reforms that can 
also have unintended consequences. Are there specifics in that 
regard? And the concept, I think, is one that I think I'm very 
interested in, but getting to the concept, are there ways to 
include the agencies in terms of their recommendations about 
what those parameters would look like, without having them sort 
of protect their own interests, because that's the other 
problem, in a way that doesn't get you then to that appellate 
level, which gets us right back where we started?
    Mr. Aftergood. Right. You know, we really need more 
experimentation in this area than what we have had. I think one 
model is this ISCAP model, this interagency panel that has been 
discussed. There may be others. You would want the voice of 
security represented, of course, but it would not be the only 
voice, so you would want diversity, diversity of opinion and 
perspective brought to bear. You would also want to define who 
could elevate the issue, a congressional committee, maybe just 
a Member of Congress. You know, who else could ask for this 
kind of review and under what circumstances? These are all 
questions that could be hashed out. I don't think the answers 
are obvious. They might not become obvious until they are tried 
in practice.
    Ms. Lujan Grisham. Mr. Chairman, thank you very much for 
giving me this extra time, and thank you very much for weighing 
in on what I think is a really critical issue for us to deal 
with. So thank you.
    Mr. Hice. I thank the gentlelady. The chair now recognizes 
Mr. Amash for 5 minutes.
    Mr. Amash. Thank you. I yield my time to the gentleman from 
Kentucky, Mr. Massie.
    Mr. Massie. I would like to thank the gentleman from 
Michigan. I have got tons of stuff I want to discuss. I am 
going to try and get three things in the last 5 minutes. The 
first two fall under the category of ``there is good news, 
but.'' Okay. There is good news in terms of the intelligence 
budget, right, because the 9/11 Commission recommended that at 
least the aggregate number be disclosed. And so it is 
disclosed. And the executive branch actually in this case does 
a better job than the legislative branch. They disclose their 
request for the budget.
    But the situation we had last week is you had 435 Members 
of Congress, probably less than 80 knew what was in the budget, 
but they all voted for it. And they can find what is in it 2 
years from now. The 2015 number I can tell you. It is on the 
Web site. We still don't disclose the top-line number, 
aggregate number, for intelligence appropriations until a year 
after it has been voted on. So that is the good news, is it is 
disclosed. The bad news is most of Congress is voting on it to 
see what is in it.
    Now, they could gown to the SCIF, like my colleague from 
Michigan and I did, and see what is in it, so that is the good 
news. But some of this is just lack of attention on our part.
    Another ``good news, but'': Mr. DeSantis capably but 
appropriately pointed out the executive branch has to have 
secrets to conduct diplomacy, et cetera, et cetera. And then, 
Mr. Blanton, you talked about how you could use the power of 
the purse. Well, there is one department that does effectively 
use the power of the purse for oversight, and that's the 
Intelligence Committee. They don't give the intelligence 
community a tranche of money and say: Okay, you have no strings 
attached, and we don't want to know anything until next year. 
They're continuously--that money is contingent upon certain 
things. And also when certain things happen, they have to be 
reported back to that committee.
    The Judiciary Committee would do well to follow that 
example. The Judiciary could fence money and say: Look, we're 
going to give you part of it, but you are not getting the rest 
of it until we get this answer. So, to the theoretical point of 
can you get this information from the executive branch or can 
you not, based on the Constitution, and Article I versus 
Article II, well, the answer is what you provided, Mr. Blanton: 
The key is in the power of the purse, and you can always get 
that information. So that's the good news, is that you can get 
the information, and the Intel Committee does it. The bad news 
is DOJ doesn't do it. And the other bad news is the Intel 
Committee controls this information very tightly, and it is 
hard for a rank-and-file Member to access that. It is basically 
20 questions in a SCIF without staff and no notes walking out. 
So that is the bad news.
    And if I have time, I will let you all comment on that. But 
here is the third thing I want to talk about, and I think it 
falls within this committee hearing today, and this question is 
for Mr. Aftergood. The Federation of American Scientists keeps 
a bootleg copy of all the Congressional Research Service 
reports. Is that correct?
    Mr. Aftergood. Not all, but many.
    Mr. Massie. Well, the ones that you can obtain?
    Mr. Aftergood. Yes.
    Mr. Massie. The Congressional Research Service, for those 
that don't know about it, is this enormous, wonderful resource 
available to Congressmen. And they have got all the historical 
context for the reasons of things, and they prepare these 
wonderful reports, but they're confidential to Congress. And 
the irony here is I could disclose them to a constituent, but 
the CRS has no clearinghouse for this. The greater irony is, on 
a weekend, I go to your Web site to find out what the 
Congressional Research Service has prepared. How ridiculous is 
that? I would like your comment on that, Mr. Aftergood.
    Mr. Aftergood. There has been a lot of talk lately about 
fake news and how it is corrupting our public discourse and so 
forth. To me, I think of CRS reports as kind of the antidote 
and the opposite of fake news.
    Mr. Massie. We get a lot of fake information here in 
Congress from various sources.
    Mr. Aftergood. We all need to be critical consumers, but I 
think the CRS products on the whole are extremely informative. 
They are balanced. They aim to educate. If you read them, you 
are going to get smarter than you are.
    Mr. Massie. That is not hard to do for a Congressman.
    Mr. Aftergood. Well, or for a citizens. I don't have too 
big a chip on my shoulder about doing this. I would just as 
soon Congress do it the right way. I think you have a product 
that you can be proud of, and you should be making it available 
to the public. Until that happens, I hope to be able to 
continue doing it through the Federation.
    Mr. Massie. I hope you do too because I need access to that 
on weekends. Thank you very much.
    Mr. Leonard. And I would only suggest: It is the end of the 
year; you might want to contribute to Steve's Web page.
    Mr. Hice. I thank the gentleman, and I also want to extend 
a sincere thanks to each of our witnesses for appearing before 
us today.
    If there is no further business, without objection, the 
committee stands adjourned.
    [Whereupon, at 11:08 a.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
